WAIVER

SUPREME COURT OF THE UNITED STATES

 

(Daniel Everett | ‘state Bar of California

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

Oo only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.) 1
oO I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Peale Rang a ~
paw: = [_qiqa|2i |

(Type or print) Name [Robert G, Retana
© wr. © Ms. © mrs. O Miss

Firm The State Bar of California

 

 

 

 

 

  

Address 180 Howard Street

 

— ~ 1 Tr
City & State {san Francisco CA | 4p [94105

 

Phone |415-538-2337

 

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

'Daniel Everett
ec: |15 Boardman Place, Suite 2
San Francisco CA 94103

 

 
